Office of Material Loss Reviews
Report No. MLR-10-039


Material Loss Review of The Buckhead
Community Bank, Atlanta, Georgia




                                  June 2010
                                     Executive Summary
                                     Material Loss Review of The Buckhead Community
                                     Bank, Atlanta, Georgia

                                                                                    Report No. MLR-10-039
                                                                                                June 2010

Why We Did The Audit
On December 4, 2009, the Georgia Department of Banking and Finance (DBF) closed The Buckhead
Community Bank (Buckhead), Atlanta, Georgia and named the FDIC as receiver. On December 16,
2009, the FDIC notified the OIG that Buckhead’s total assets at closing were $896 million and that the
estimated loss to the Deposit Insurance Fund (DIF) was $241 million. As of December 31, 2009,
Buckhead’s total assets and estimated loss to the DIF had decreased to $890.5 million and $240 million,
respectively. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG
conducted a material loss review of the failure of Buckhead.

The objectives of this material loss review were to (1) determine the causes of Buckhead’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Buckhead, including the
FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background
Buckhead, a full-service commercial bank headquartered in Atlanta, Georgia, opened for business on
February 6, 1998 as a nationally-chartered bank regulated by the Office of the Comptroller of the
Currency. On July 1, 2005, Buckhead converted to a state-chartered nonmember bank, at which time
federal supervision of the bank transferred to the FDIC. Buckhead specialized in commercial real estate
(CRE) loans, in particular residential and commercial acquisition, development, and construction (ADC)
loans, primarily in and around Atlanta. In addition to its main office, Buckhead maintained six branch
offices and one loan production office.

Buckhead was wholly-owned by Buckhead Community Bancorp, Inc. (Bancorp), Atlanta, Georgia, a one-
bank holding company. On December 4, 2007, Bancorp acquired Allied Bancshares, Inc. (Allied) and its
wholly-owned subsidiary, the First National Bank of Forsyth County, Cumming, Georgia (Forsyth). On
the same date, Bancorp merged Forsyth into Buckhead, which significantly increased the dollar amount of
the bank’s total assets, loans, and deposits. The Board controlled 46 percent of Bancorp’s outstanding
stock.


Audit Results
Causes of Failure and Material Loss

Buckhead failed because the bank’s Board and management did not implement adequate controls to
identify, measure, monitor, and control the risks associated with the bank’s significant ADC
concentration. Further, Buckhead relied on potentially volatile non-core liabilities such as higher-priced
certificates of deposit, including brokered deposits, to fund loan growth. Weaknesses in the bank’s loan
underwriting and credit administration practices, exacerbated by the precipitous economic decline in the
Atlanta metropolitan real estate market that began in 2007, led to ADC loan losses that eroded the bank’s
earnings and capital and an inadequate Allowance for Loan and Lease Losses (ALLL). Buckhead was
unable to raise sufficient capital to support its operations or find a suitable acquirer. Ultimately,
Buckhead’s capital position became Critically Undercapitalized for PCA purposes and the DBF
determined that the bank was not viable and closed the institution in December 2009.




                                 To view the full report, go to www.fdicig.gov
                                     Material Loss Review of The Buckhead Community
   Executive Summary                 Bank, Atlanta, Georgia

                                                                                     Report No. MLR-10-039
                                                                                                 June 2010

The FDIC’s Supervision of Buckhead

From January 2005 until the bank failed in December 2009, the FDIC, in conjunction with the DBF,
provided ongoing supervision of Buckhead through five onsite risk management examinations and offsite
monitoring activities. Through its supervisory efforts, the FDIC identified risks in Buckhead’s operations
and brought these risks to the attention of the bank’s Board and management through examination reports
and other correspondence. Such risks included Buckhead’s significant concentration in CRE loans,
including ADC loans; reliance on potentially volatile funding sources; and weaknesses in credit risk
management practices related to loan underwriting, credit administration, and the ALLL. Examiners also
reported apparent violations of regulations and contraventions of interagency policy and guidance
associated with the institution’s lending practices. In addition, examiners performed procedures to
determine whether the bank had taken appropriate corrective action to address examiner
recommendations, and made additional recommendations when the bank’s corrective actions were not
adequate.

The FDIC downgraded certain supervisory component ratings and the bank’s composite rating at the
January 2008 examination. The FDIC and the DBF also pursued informal and formal enforcement
actions to address problems identified at the January 2008 and December 2008 examinations,
respectively. However, additional and earlier supervisory action to address certain key risks may have
been warranted in connection with the January 2008 examination, in light of the bank’s ADC
concentration in a declining real estate market. In addition, the FDIC could have issued certain
examination reports and imposed enforcement actions more timely.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for Buckhead.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On June 9, 2010, the Director, Division
of Supervision and Consumer Protection (DSC), provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of Buckhead’s failure. With regard to our
assessment of the FDIC’s supervision of Buckhead, DSC stated that after Buckhead’s acquisition of
Forsyth in December 2007, the FDIC conducted a full-scope examination in January 2008 and that
examiners noted heightened risks due to high concentrations in ADC lending and found that a large
portion of the loans adversely classified originated from the Forsyth office. In addition, DSC stated that
at the December 2008 examination, Buckhead’s loan assets had further deteriorated to a level that raised
significant regulatory concern and posed considerable risk, resulting in a formal enforcement action.
Buckhead was unable to raise sufficient capital to absorb the loan losses, support its operations, and
maintain liquidity. Further, DSC stated that it recognizes that strong supervisory attention is necessary
for institutions with high ADC and commercial real estate concentrations and volatile funding sources,
such as Buckhead, and has issued updated guidance reminding examiners to take appropriate action when
those risks are imprudently managed.




                                 To view the full report, go to www.fdicig.gov
                                 Contents
                                                                      Page
Background                                                              2

Causes of Failure and Material Loss                                     3
   ADC Concentration                                                    3
   Potentially Volatile Funding Sources                                 6
   Credit Risk Management Practices                                     7

The FDIC’s Supervision of Buckhead                                     10
   Supervisory History                                                 11
   Supervisory Response to Key Risks                                   13
   Implementation of PCA                                               18

Corporation Comments                                                   20

Appendices
  1. Objectives, Scope, and Methodology                                21
  2. Glossary of Terms                                                 24
  3. Acronyms                                                          26
  4. Corporation Comments                                              27

Tables
  1. Selected Financial Information for Buckhead, 2004 to 2009          3
  2. Buckhead’s ADC Concentration as a Percent of Total Capital and     5
       Average Gross Loans Compared to Peers
  3. Buckhead’s Adversely Classified Items and ALLL                    10
  4. Buckhead’s Examination and Enforcement Action History, 2005 to    11
       2009
  5. Supervisory Action Timeline for Buckhead’s January 2008 and       17
       December 2008 Examinations
  6. Buckhead’s Total Risk-Based Capital Ratio Compared to Peers       19

Figure
   Buckhead’s Loan Portfolio Composition and Growth                     4
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           June 15, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection



                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of The Buckhead Community Bank,
                                                Atlanta, Georgia (Report No. MLR-10-039)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of
The Buckhead Community Bank (Buckhead), Atlanta, Georgia. The Georgia
Department of Banking and Finance (DBF) closed the institution on December 4, 2009
and named the FDIC as receiver. On December 16, 2009, the FDIC notified the OIG that
Buckhead’s total assets at closing were $896 million and that the estimated loss to the
Deposit Insurance Fund (DIF) was $241 million. As of December 31, 2009, Buckhead’s
total assets and estimated loss to the DIF had decreased to $890.5 million and
$240 million, respectively.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Buckhead’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of Buckhead, including the FDIC’s implementation of the PCA


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
provisions of section 38 of the FDI Act. This report presents our analysis of Buckhead’s
failure and the FDIC’s efforts to ensure that the Board of Directors (Board) and
management operated the institution in a safe and sound manner. The report does not
contain formal recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in our material loss reviews, we will
communicate those to FDIC management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC supervision
program and make recommendations, as warranted.3 Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of key terms and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
Buckhead, a full-service commercial bank headquartered in Atlanta, Georgia, opened for
business on February 6, 1998 as a nationally-chartered bank regulated by the Office of
the Comptroller of the Currency (OCC). On July 1, 2005, Buckhead converted to a state-
chartered nonmember bank, at which time federal supervision of the bank transferred to
the FDIC. Buckhead specialized in commercial real estate (CRE) loans, in particular
residential and commercial acquisition, development, and construction (ADC) loans,
primarily in and around Atlanta. In addition to its main office, Buckhead maintained six
branch offices and one loan production office.

Buckhead was wholly-owned by Buckhead Community Bancorp, Inc. (Bancorp),
Atlanta, Georgia, a one-bank holding company. On December 4, 2007, Bancorp acquired
Allied Bancshares, Inc. (Allied) and its wholly-owned subsidiary, the First National Bank
of Forsyth County, Cumming, Georgia (Forsyth). On the same date, Bancorp merged
Forsyth into Buckhead,4 which significantly increased the dollar amount of the bank’s
total assets, loans, and deposits. The Board controlled 46 percent of Bancorp’s
outstanding stock.

Table 1 provides details on Buckhead’s financial condition as of September 30, 2009 and
for the 5 preceding calendar years.




3
  For example, in May 2010, the FDIC OIG’s Office of Evaluations initiated a review of the role and
federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and
section 39, Standards for Safety and Soundness) in the banking crisis.
4
  The acquisition of Allied and merger of Buckhead and Forsyth were approved by the responsible
regulatory agencies, as applicable.


                                                    2
Table 1: Selected Financial Information for Buckhead, 2004 to 2009
                              Sept-09     Dec-08      Dec-07    Dec-06       Dec-05     Dec-04
   Financial Measure
                                                    (Dollars in Thousands)
Total Assets                 $856,236    $908,589    $881,955   $529,779     $391,018   $264,572
Total Loans                  $648,261    $718,310    $677,351   $381,900     $267,708   $186,249
Total Deposits               $813,668    $766,941    $755,987   $472,153     $348,814   $219,962
Allowance for Loan and       $19,096     $12,114      $9,787     $4,518       $3,293     $2,386
Lease Losses
Brokered Deposits             $76,128 $277,683 $183,316         $122,977     $27,768    $14,901
Net Income (Loss)            $(59,787) $(35,828) $4,423          $5,633      $3,518      $2,108
Net Loan Growth Rate         (12.23%)   5.79%    76.89%          42.72%      43.81%     49.15%
Source: Uniform Bank Performance Reports (UBPR) for Buckhead.



Causes of Failure and Material Loss
Buckhead failed because the bank’s Board and management did not implement adequate
controls to identify, measure, monitor, and control the risks associated with the bank’s
significant ADC concentration. Further, Buckhead relied on potentially volatile non-core
liabilities such as higher-priced certificates of deposit, including brokered deposits, to
fund loan growth. Weaknesses in the bank’s loan underwriting and credit administration
practices, exacerbated by the precipitous economic decline in the Atlanta metropolitan
real estate market that began in 2007, led to ADC loan losses that eroded the bank’s
earnings and capital and an inadequate Allowance for Loan and Lease Losses (ALLL).
Buckhead was unable to raise sufficient capital to support its operations or find a suitable
acquirer. Ultimately, Buckhead’s capital position became Critically Undercapitalized for
PCA purposes and the DBF determined that the bank was not viable and closed the
institution in December 2009.

ADC Concentration

Much of the bank’s loan portfolio focused on CRE loans, comprised primarily of higher-
risk ADC loans. However, in spite of earlier signs of a decline in the Atlanta residential
real estate market, Buckhead’s Board and management did not sufficiently reduce ADC
lending activities, or take adequate steps to mitigate the risk associated with these
activities, before deterioration in the bank’s financial condition became evident. As
noted in the figure on the next page, Buckhead rapidly increased its loan portfolio from
2004 to 2007. Annual loan growth rates exceeded 40 percent during this period.




                                                3
Buckhead’s Loan Portfolio Composition and Growth

                          $800
                                                                                        $719
                                            All Other Loans                  $678
                          $700                                                                      $648
                                            Other CRE Loans
                                            ADC Loans                                  $180
                                                                            $149
                          $600
                                                                                                  $169
    Dollars in Millions




                          $500
                                                                $381        $156       $193
                          $400                                                                    $187
                                                   $267       $99
                          $300
                                      $186                    $71
                                                 $66
                          $200                   $62                        $373       $346
                                    $57                                                           $292
                                    $37                       $211
                          $100                   $139
                                    $92
                           $0
                                 Dec-2004    Dec-2005     Dec-2006       Dec-2007   Dec-2008   Sept-2009
                                                              Period Ended

Source: OIG Analysis of Consolidated Reports of Condition and Income (Call Reports) for Buckhead.

While Buckhead’s loan growth through 2007 was more aggressive than its peers,5 the
Board and management generally maintained the bank’s capital at levels that were below
those of its peers, as discussed in more detail in the Implementation of PCA section of
this report.

The FDIC, the OCC, and the Board of Governors of the Federal Reserve System issued
guidance in December 2006, entitled, Concentrations in Commercial Real Estate
Lending, Sound Risk Management Practices (Joint Guidance), to reinforce existing
regulations and guidelines for real estate lending and safety and soundness. The Joint
Guidance focuses on CRE loans for which cash flow from real estate is the primary
source of repayment, including ADC lending. The Joint Guidance states that the
agencies had observed an increasing trend in the number of institutions with
concentrations in CRE loans and noted that rising CRE concentrations could expose
institutions to unanticipated earnings and capital volatility in the event of adverse changes
in the general CRE market. Although the Joint Guidance does not establish specific CRE
lending limits, it defines criteria to identify institutions potentially exposed to significant
CRE concentration risk. According to the guidance, a bank that has experienced rapid
growth in CRE lending, has notable exposure to a specific type of CRE, or is approaching


5
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. As of December 31, 2004, Buckhead’s
peer group included all insured commercial banks having assets between $100 million and $300 million,
with three or more full-service banking offices and located in a metropolitan statistical area. Beginning in
June 30, 2005, Buckhead’s peer group became all insured commercial banks having assets between
$300 million and $1 billion.


                                                                     4
 or exceeds the following supervisory criteria may be identified for further supervisory
 analysis of the level and nature of its CRE concentration risk:

        Total reported loans for construction, land development, and other land (referred
         to in this report as ADC) representing 100 percent or more of Total Capital; or

        Total CRE loans representing 300 percent or more of Total Capital where the
         outstanding balance of the institution’s CRE loan portfolio has increased by
         50 percent or more during the prior 36 months.

 According to the Joint Guidance, CRE loan concentrations can pose substantial potential
 risks and inflict large losses on institutions. Therefore, risk management practices and
 capital levels should be commensurate with the level and nature of the CRE loan
 concentration risk. As shown in Table 2, from December 2004 through September 2009,
 Buckhead’s ADC concentration as a percent of Total Capital consistently and
 significantly exceeded the 100 percent threshold in the Joint Guidance, as well as the
 ratios of its peers. The bank’s ADC loans as a percent of average gross loans also
 consistently and significantly exceeded the ratios of its peers.

Table 2: Buckhead’s ADC Concentration as a Percent of Total Capital and Average
         Gross Loans Compared to Peers
                                    ADC Loans as a                                  ADC Loans as a
                                 Percent of Total Capital                   Percent of Average Gross Loans
    Period Ending             Buckhead             Peers                     Buckhead              Peers
 December 31, 2004                353                     81                      43                      10
 December 31, 2005                372                    104                      51                      13
 December 31, 2006                446                    117                      52                      15
 December 31, 2007                475                    124                      55                      16
 December 31, 2008               494*                    111                      52                      15
 September 30, 2009             1,870*                   92                       47                      13
 Source: UBPRs for Buckhead.
 * The increase in ADC loans as a percent of Total Capital in 2008 and 2009 was due primarily to the decline
 in Buckhead’s capital.

 According to Board minutes for October and November 2007, Board members noted the
 general decline in economic conditions and the local housing market. However, in
 December 2007, Buckhead merged with a bank that also had significant CRE and ADC
 concentrations in the Atlanta metropolitan area, further increasing Buckhead’s financial
 exposure to such lending. As of September 30, 2007, prior to the merger, Forsyth’s loan
 portfolio was less than one-third the size of Buckhead’s loan portfolio and its ADC and
 non-owner occupied CRE concentrations as a percent of Total Capital were 354 percent
 and 600 percent, respectively. As of December 31, 2007, subsequent to the merger, the
 ADC and non-owner occupied CRE concentrations as a percent of Total Capital for the
 combined bank remained high at 475 percent and 590 percent, respectively.

 Bancorp paid $53.8 million for the acquisition of Allied and its subsidiary bank Forsyth.
 The purchase price consisted of approximately $40.4 million in common stock issued and
 stock options assumed, and $13.4 million in cash that might otherwise have been


                                                     5
available to provide capital support to Buckhead. The November 2008 Board minutes
indicated that about half of both the dollar amount and the number of the bank’s non-
performing loans at that time came from the Forsyth acquisition.

According to the Joint Guidance, an institution’s Board is responsible for establishing
appropriate risk limits, monitoring exposure, and evaluating the effectiveness of the
institution’s efforts to manage and control risk. The FDIC’s January 2008 examination
report6 noted the impact of the downturn in the Atlanta real estate market, the effect of
which was amplified by the bank’s significant ADC concentration, and recommended
Buckhead’s management develop additional controls, as outlined in the Joint Guidance.
These controls included, among others:

        ongoing risk assessments of the CRE and ADC concentrations,
        a contingency plan for addressing adverse developments in the CRE sector,
        risk tolerance levels included in the bank’s strategic plan,
        stratification of the CRE portfolio by various activities and influences,
        market analysis of the property types and geographic markets, and
        stress testing to quantify the impact of changing economic conditions on asset
         quality.

Although Buckhead took action in 2008 to reduce its ADC concentration exposure and
placed a moratorium on new ADC loans, the bank’s efforts did not adequately address
the recommendations in the January 2008 examination report. Accordingly, the
December 2008 examination report identified many of the same CRE concentration-
related weaknesses highlighted in the previous examination, including ones related to the
controls listed above. The bank’s loan policy continued to reflect a high overall CRE
concentration limit of 750 percent of Total Capital; therefore, the report included a repeat
recommendation for the bank to update its loan policy to address acceptable levels of
exposure to CRE and ADC loans, as well as requirements for feasibility studies,
sensitivity analysis, and stress testing.

The financial impact of the declining economy and real estate market, coupled with
Buckhead’s concentrations and associated weaknesses, became apparent during 2008 and
worsened during 2009. Specifically, Buckhead’s net charge-offs of $33 million, of which
86 percent were ADC loans for the period January 2008 through September 2009,
significantly decreased the bank’s earnings and capital. In addition, by September 30,
2009, almost 23 percent of the loan portfolio was non-current with the majority
(79 percent) of the total delinquencies represented by ADC loans, and in particular,
1-4 family residential construction loans.

Potentially Volatile Funding Sources

Buckhead depended heavily on potentially volatile non-core funding sources, including
Internet certificates of deposit and brokered deposits, to help fund its loan growth. The

6
  Unless otherwise noted in this report, references to examination dates will refer to the month and year of
the examination start dates.


                                                      6
reliance on such funding sources was therefore integral to the bank’s ability to obtain and
sustain the excessive ADC concentration.

Buckhead’s level of brokered deposits ranged from a low of $14.9 million, as of
December 2004, to a high of $277.7 million, as of December 2008. In addition, the
bank’s brokered deposits increased significantly during 2006 and again in 2008, with
annual increases of $95 million (343 percent), as of December 2006, and $94 million
(51 percent), as of December 2008. Further, Buckhead’s reliance on potentially volatile
funding sources was reflected in the bank’s high net non-core funding dependence ratio,
which increased from 26 percent, as of December 2004, to 58 percent, as of December
2008, and consistently and significantly exceeded the average for the bank’s peers.

A bank’s net non-core funding dependence ratio indicates the degree to which the bank is
relying on non-core/volatile liabilities to fund long-term earning assets. Generally, a
lower ratio reflects less risk exposure, whereas higher ratios indicate greater risk
exposure and a reliance on funding sources that may not be available in times of financial
stress or adverse changes in market conditions. A heavy reliance on potentially volatile
liabilities to fund asset growth is a risky business strategy because the availability and
access to these funds may be limited in the event of deteriorating financial or economic
conditions, and assets may need to be sold at a loss in order to fund deposit withdrawals
and other liquidity needs.

Although the bank developed a contingency funding plan (CFP), the December 2008
examination concluded that the CFP assumed the bank would remain Well Capitalized
and therefore did not address the contingency of losing access to the brokered deposit
market should the bank fall to a lower capital category. Buckhead’s access to brokered
deposits was restricted in January 2009 once its capital ratios fell to Adequately
Capitalized,7 based on the bank’s December 31, 2008 financial data.

Credit Risk Management Practices

Buckhead’s Board and management failed to develop, implement, and sustain an
adequate credit risk management framework commensurate with the inherent risks
associated with its ADC concentration. The Joint Guidance states that financial
institutions with CRE concentrations should implement risk management practices
appropriate to the size of the portfolio, as well as the level and nature of concentrations.
In addition, earlier guidance on ADC lending8 emphasized that management’s ability to
identify, measure, monitor, and control portfolio risk through effective underwriting
policies, systems, and internal controls was crucial to a sound ADC lending program.



7
  Under FDIC Rules and Regulations, Part 337, Unsafe and Unsound Banking Practices, an institution that
is Adequately Capitalized, as defined in Part 325, Capital Maintenance, of the FDIC Rules and
Regulations, may not accept, renew, or roll over any brokered deposits without a waiver of these
restrictions from the FDIC. Part 337 implements section 29, Brokered Deposits, among other things.
8
  Financial Institution Letter (FIL) 110-98, entitled, Internal and Regulatory Guidelines for Managing Risks
Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                     7
Loan Underwriting and Credit Administration

According to the DSC’s Risk Management Manual of Examination Policies (Examination
Manual), the degree of risk in a real estate loan depends primarily on the loan amount in
relation to collateral value, the interest rate, and most importantly, the borrower’s ability
to repay in an orderly fashion. Undue reliance should not be placed upon a property’s
appraised value in lieu of an adequate initial assessment of a debtor’s repayment ability.

The January 2005, January 2006, and February 2007 examinations generally found
Buckhead’s credit risk management practices, including loan underwriting and credit
administration, to be adequate, although examiners made some recommendations to
improve those controls. In particular, the January 2006 examination report recommended
that Buckhead enhance the bank’s loan policy to ensure borrower cash flow analyses
were expanded in credit memoranda.

In addition, the external loan review of Buckhead conducted in September 2007
identified various loan underwriting weaknesses and made recommendations to improve
borrower analyses, strengthen oversight of loan participations purchased, and expand
disclosure of credit risk in loan approval memoranda. The review also identified a
number of documentation exceptions related to financial statements and tax returns.

By the January 2008 examination, examiners concluded that credit risk management
practices were inadequate and specifically noted the following loan underwriting and
credit administration weaknesses:

      insufficient analysis of borrower financial condition and global cash flows that
       incorporated the borrower’s entire lending relationship, including obligations to
       other institutions;

      inappropriate use of interest reserves, and the lack of guidance in the bank’s loan
       policy regarding the use of interest reserves;

      lack of borrower equity in development and construction projects, for which
       management consistently loaned 100 percent of the cost;

      inadequate (1) appraisals and failure to obtain updated appraisals as needed for
       loan renewals, (2) monitoring of progress on construction projects, and
       (3) monitoring and oversight of purchased participations; and

      untimely recognition of problem assets.

FIL-22-2008, entitled, Managing Commercial Real Estate Concentrations in a
Challenging Environment, dated March 17, 2008, was issued subsequent to the start of
the January 2008 examination and recommended key risk management processes to help
institutions with significant ADC and CRE concentrations manage through changes in
market conditions. Many of the weaknesses in Buckhead’s credit risk management
practices, identified in the January 2008 examination report, can be associated with one


                                             8
or more of the key risk management processes discussed in this guidance. Nonetheless,
the December 2008 examination subsequently determined that Buckhead had failed to
adequately address many of the previously reported weaknesses in credit risk
management practices. Those weaknesses included, but were not limited to:

       insufficient financial analyses;

       inadequate appraisals, loan monitoring, and borrower equity in construction and
        development projects;

       the failure to place loans in nonaccrual status and recognize problem loans in a
        timely manner; and

       the failure to update the bank’s loan policy to provide minimum standards for,
        among other things, initial borrower investment and maintenance of hard equity,
        borrower net worth and global cash flow, and debt service coverage for collateral
        property.

Allowance for Loan and Lease Losses

According to the Interagency Policy Statement on the Allowance for Loan and Lease
Losses (Policy Statement on ALLL), the ALLL represents one of the most significant
estimates in an institution’s financial statements and regulatory reports. As a result, each
institution is responsible for developing, maintaining, and documenting a comprehensive,
systematic, and consistently applied process for determining the ALLL.

The examinations conducted from January 2005 to January 2008 generally concluded
that Buckhead’s ALLL methodology and funding were satisfactory, although the January
2008 examination report identified the need for an additional provision for loan losses.
However, the December 2008 examination concluded that the ALLL methodology was
inadequate because the bank did not provide sufficient detail to support the accuracy of
the Statement of Financial Accounting Standards (FAS) No. 59 portion of the ALLL
calculation. In particular, management was not:

       segmenting construction loans into specific categories, such as residential and
        commercial, and providing different levels of reserves based on the risk of each
        category; or

       performing analyses of current trends, loss histories, economic factors, and
        significant changes in concentration levels and incorporating the results of the
        analyses into the ALLL calculation.

Concern regarding the bank’s ALLL funding was first reported at the January 2008
examination. By December 2008, examiners determined that, based on trends, loan

9
 FAS No. 5, Accounting for Contingencies, is one of the principal sources of guidance on accounting for
impairment in a loan portfolio under Generally Accepted Accounting Principles.


                                                    9
concentrations, and the level of adversely classified assets, Buckhead’s ALLL was
underfunded by more than $8.6 million. In addition, due to the bank’s insufficient detail
for the FAS 5 calculation, Buckhead was considered to be in apparent contravention of
the Policy Statement on ALLL.

Table 3 provides a summary of the growth in Buckhead’s adversely classified items and
corresponding increase in ALLL funding for the examinations conducted from January
2005 through December 2008.

Table 3: Buckhead’s Adversely Classified Items and ALLL
                                                                Examination Start Dates
                                                  Jan-05     Jan-06     Feb-07      Jan-08      Dec-08

                                                                  (Dollars in Thousands)
 Total Adversely Classified Items                $2,555     $4,631      $9,566     $81,559      $173,770
 Adversely Classified Items as a Percent of      9.82%      12.63%      20.72%     103.14%      235.79%
 Tier 1 Capital plus ALLL
 ALLL Funding                                    $2,386     $3,535      $4,749      $9,787       $10,836
 Increase in ALLL Computed by Examiners            -0-        -0-         -0-       $1,500       $8,649
Source: Examination reports for Buckhead.

The January 2008 examination report highlighted the high level of classified ADC loans,
which comprised approximately 50 percent of total loan classifications. As its loan
portfolio deteriorated, the bank’s earnings and capital were negatively impacted.
Specifically, Buckhead’s earnings decreased from $4.4 million, as of December 31, 2007,
to negative $35.8 million, as of December 31, 2008, and to negative $59.8 million, as of
September 30, 2009.


The FDIC’s Supervision of Buckhead
From January 200510 until the bank failed in December 2009, the FDIC, in conjunction
with the DBF, provided ongoing supervision of Buckhead through five onsite risk
management examinations and offsite monitoring activities. Through its supervisory
efforts, the FDIC identified risks in Buckhead’s operations and brought these risks to the
attention of the bank’s Board and management through examination reports and other
correspondence. Such risks included Buckhead’s significant concentration in CRE loans,
including ADC loans; reliance on potentially volatile funding sources; and weaknesses in
credit risk management practices related to loan underwriting, credit administration, and
the ALLL. Examiners also reported apparent violations of regulations and contraventions
of interagency policy and guidance associated with the institution’s lending practices. In
addition, examiners performed procedures to determine whether the bank had taken


10
  The January 2005 examination was conducted by the DBF prior to Buckhead’s charter change for the
purpose of approving the bank’s conversion from a nationally-chartered bank to a state-chartered
nonmember bank.


                                                 10
appropriate corrective action to address examiner recommendations, and made additional
recommendations when the bank’s corrective actions were not adequate.

The FDIC downgraded certain supervisory component ratings11 and the bank’s composite
rating at the January 2008 examination. The FDIC and the DBF also pursued informal
and formal enforcement actions to address problems identified at the January 2008 and
December 2008 examinations, respectively. However, additional and earlier supervisory
action to address certain key risks may have been warranted in connection with the
January 2008 examination, in light of the bank’s ADC concentration in a declining real
estate market. In addition, the FDIC could have issued certain examination reports and
imposed enforcement actions more timely.

Supervisory History

Between 2005 and 2009, the FDIC and the DBF conducted five onsite examinations of
Buckhead as required12 and monitored Buckhead’s condition using various offsite
monitoring tools. Table 4 summarizes Buckhead’s examination history from 2005 to
2008, including the bank’s supervisory ratings and enforcement actions taken.

Table 4: Buckhead’s Examination and Enforcement Action History, 2005 to 2009
                                                    Supervisory
Examination       Examination
                                      Agency          Ratings                     Enforcement Action
 Start Date        as of Date
                                                      (UFIRS)
 01/07/2005        12/31/2004          DBF            222222/2       None
 01/30/2006        09/30/2005          FDIC           222222/2       None
 02/05/2007        09/30/2006          DBF            222222/2       None
 01/28/2008        12/31/2007          FDIC           343332/3       Memorandum of Understanding (MOU)
                                                                     – Effective November 2008
 12/08/2008        09/30/2008       DBF/FDIC          555554/5       Bank Board Resolution (BBR) – Effective
                                                                     February 2009
                                                                     Cease and Desist Order (C&D) – Effective
                                                                     August 2009
Source: Examination reports and enforcement actions for Buckhead.

Buckhead consistently received composite “2” CAMELS ratings from its inception
through the February 2007 examination, indicating that the bank gave no cause for
supervisory concern, and weaknesses identified were considered minor and correctable in
the normal course of business. The January 2008 examination found that the overall

11
   Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
12
   Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million).


                                                     11
condition of the bank had deteriorated to less than satisfactory, resulting in a
composite “3” CAMELS rating. Of particular concern was the bank’s asset quality,
which was rated a “4” as a result of elevated past-due ratios and a substantial increase in
adversely classified items, byproducts of inadequate risk management practices and the
downturn in the Atlanta real estate market. The “4” rating indicated deficient asset
quality or credit administration practices and significant levels of risk and problem assets
that were inadequately controlled and subjected the bank to potential losses that, if left
uncorrected, might threaten Buckhead’s viability.

As a result of concerns identified in the January 2008 examination, during June 2008, the
Atlanta Regional Office added Buckhead to its Supervisory Watch List, which identifies
financial institutions in the Atlanta Region with composite ratings of “3”, “4”, or “5”. In
addition, the FDIC’s offsite review, conducted in September 2008, identified continued
deterioration at the bank, and indicated a 93-percent probability of a downgrade of
Buckhead’s composite rating to a “4.”

Due to deterioration in Buckhead’s condition, the FDIC and the DBF jointly pursued an
MOU with the bank. The MOU, effective November 10, 2008, contained 11 provisions
that required the bank to, among other things:

      adopt a loan policy that included guidelines for the bank’s ADC loan
       concentration and emphasized reducing that concentration and implementing the
       risk management practices in the Joint Guidance;

      enhance the quality of the bank’s problem assets;

      improve credit risk management practices and the ALLL;

      maintain capital ratios in the Well Capitalized range; and

      decrease reliance on volatile liabilities.

As a result of the bank’s declining capital level and deteriorating financial condition
identified through offsite monitoring, the FDIC and the DBF accelerated the next
examination of Buckhead, previously scheduled for the second quarter of 2009, to
December 2008. That examination determined that Buckhead had not adequately
addressed the weaknesses identified at the previous examination and resulted in a further
downgrade in the bank’s composite rating to a “5”, which indicated extremely unsafe and
unsound practices or conditions; critically deficient performance; inadequate risk
management practices relative to the institution’s size, complexity, and risk profile; and
great supervisory concern. Institutions in this group pose a significant risk to the DIF and
a high probability of failure.

In February 2009, Buckhead adopted a BBR that incorporated the provisions of the
November 2008 MOU as well as additional provisions to address the weaknesses at the




                                              12
bank. Specifically, the BBR included provisions to:

        increase Board oversight, including a third-party assessment of the Board;

        review management and staffing, and maintain qualified senior management;

        develop a 3-year strategic and business plan;

        improve the bank’s loan review program and loan grading system;

        perform a risk segmentation analysis of the bank’s assets, along with a plan to
         reduce ADC concentration levels; and

        correct deficiencies in, and reduce the level of, Special Mention loans.

During the period January through June 2009, the bank provided the FDIC and the DBF
six periodic progress reports addressing the provisions of the MOU and BBR.
Nonetheless, the FDIC and the DBF notified Buckhead on July 9, 2009 that a formal
enforcement action was necessary to address unsafe and unsound practices noted at
Buckhead’s December 2008 and previous examinations. Therefore, the DBF, in
consultation with the FDIC, issued a C&D, effective August 6, 2009, which included
provisions previously contained in the MOU and/or BBR and an additional requirement
that Buckhead fully disclose the C&D requirements to the bank’s shareholders.13

Despite Buckhead’s efforts to address the provisions in the MOU, BBR and C&D, the
condition of the bank continued to deteriorate and Buckhead was ultimately closed in
December 2009.

Supervisory Response to Key Risks

The January 2006 through December 2008 examination reports for Buckhead indicated
that FDIC and DBF examiners identified concerns and made recommendations related to
the risks associated with Buckhead’s (1) high ADC concentrations, (2) reliance on
potentially volatile funding sources, and (3) credit risk management practices, including
the ALLL. In addition, as discussed above, the MOU and C&D that the FDIC and the
DBF issued contained provisions that addressed those risks. We determined, however,
that additional and earlier supervisory action to address these risks may have been
warranted in connection with the January 2008 examination. In addition, the FDIC could
have issued certain examination reports and imposed enforcement actions more timely.




13
  On July 14, 2009, the FDIC and DBF met with the Buckhead’s Board to discuss findings of the
December 8, 2008 joint examination and to present the DBF C&D, and on July 28, 2009, the Board signed
the C&D. The C&D, issued on August 6, 2009, included the Board’s acknowledgment of receipt and
agreement to comply with the terms and conditions of the C&D.


                                                 13
ADC Concentration

The Pre-Examination Planning Memorandum for the FDIC’s first examination of
Buckhead in January 2006 reflected a Real Estate Stress Test (REST)14 score of “5,” due
to the bank’s rapid asset growth and concentration in ADC lending and indicating the
highest level of exposure to potential market deterioration. Both the January 2006 and
February 2007 examination reports identified the bank’s high ADC concentration level
and corresponding significant dependence on potentially volatile non-core funding
sources. These reports concluded that Buckhead’s asset quality was satisfactory and, in
general, found controls related to the bank’s loan concentrations to be adequate. The
January 2006 examination report contained a recommendation for enhancing
concentration-related procedures, while the February 2007 examination report advised
the Board and bank management to continue to closely monitor ADC loans.

Subsequent to the February 2007 examination, the bank experienced a significant
deterioration in asset quality. The January 2008 and December 2008 examination reports
(1) included recommendations to improve oversight and monitoring controls over
Buckhead’s concentrations, (2) raised concerns over the bank’s reliance on non-core
funding sources, and (3) cited the bank for an apparent contravention of the Joint
Guidance due to inadequate controls to manage concentration risks.

Examiner concern over the bank’s ADC concentration during the January 2008
examination resulted in examiners expanding the scope of the loan review.
Subsequently, the actual examination hours significantly exceeded the staff budget by
430 hours due to the overall deterioration in the bank’s asset quality. The examination
concluded that although Buckhead’s capital ratios were above the level to be considered
Well Capitalized, the bank’s capital was less than satisfactory and not adequate to
mitigate the risks posed by Buckhead’s high CRE concentration, primarily comprised of
ADC loans, which represented 763 percent of Tier 1 Capital as of December 31, 2007.

Due to the level of concern for the bank’s overall financial condition, in general, and the
asset quality, in particular, examiners downgraded asset quality from a “2” to a “4”
during the January 2008 examination and considered downgrading the bank’s composite
rating from a “2” to a “4”. Examiners stated that a downgrade in the composite rating to
a “4” may have resulted in the pursuit of a C&D during 2008 instead of an MOU.
However, examiners indicated that the decision to downgrade the bank to a composite
rating of “3” rather than a “4” was based, in part, on the Board’s and management’s
verbal promises to provide additional capital as needed to maintain the bank’s Well
Capitalized position. DSC officials stated that this decision was primarily based on the

14
  REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the early 1990s. The primary risk factor is the ratio of construction and
development loans to total assets. Other risk factors include the percentage of CRE loans, percentage of
multifamily loans, percentage of commercial and industrial loans, and high non-core funding and rapid
asset growth. A bank with a high concentration in construction and development loans, coupled with rapid
asset growth, would appear to be riskier than a bank with similar concentrations but low asset growth.
REST uses statistical techniques and Call Report data to forecast an institution’s condition over a 3- to
 5-year period and provides a single rating from 1 to 5 in descending order of performance quality.


                                                    14
examiners’ determination that Board members had access to significant personal financial
resources that would have allowed them to follow through on those promises. Formal
capital-related commitments were subsequently included in the provisions of the MOU,
BBR, and C&D; however, the Board and management ultimately did not obtain the
needed capital for the bank. As a result of ADC-related losses, Buckhead’s capital ratios
fell to Critically Undercapitalized based on the bank’s August 2009 financial data.

We recognize that rating determinations are a matter of judgment; however, in hindsight,
examiners may have been more effective in bringing about necessary risk mitigation for
the ADC concentration by not relying so heavily on bank management and Board
promises to provide additional capital as needed. Instead, a stronger supervisory
response in the January 2008 examination may have resulted, at an earlier stage, in a
more formal Board and management commitment to ensure the bank’s capital levels
remained commensurate with the level and nature of the bank’s ADC concentration risk.

Potentially Volatile Funding Sources

The Examination Manual states that when rating liquidity, examiners should consider the
capability of management to properly identify, measure, monitor, and control the
institution’s liquidity position, including the effectiveness of funds management
strategies, liquidity policies, management information systems, and CFPs. In addition,
funds management practices should ensure that liquidity is not maintained at a high cost,
or through undue reliance on funding sources that may not be available in times of
financial stress or adverse changes in market conditions. Further, the Examination
Manual states that bank management should understand the ramifications of having
advance funding, such as FHLB advances, curtailed in the event that the institution’s
financial strength deteriorates, and the bank’s CFP should identify alternative sources of
funding.

Examination reports indicate that examiners reviewed and assessed the adequacy of
Buckhead’s liquidity management, in general, and the bank’s CFP, in particular. In that
regard,

         The January 2008 examination report noted that brokered deposits comprised a
          significant portion of total funding sources and that the level of these deposits had
          heightened liquidity concerns. The report concluded that Buckhead’s CFP
          appeared to be adequate based on the bank’s overall risk profile. However, our
          review of the CFP found that it did not address the potential loss of brokered
          deposits. Bank management told examiners that they planned to replace a
          significant portion of the brokered deposits at maturity with lower-priced Federal
          Home Loan Bank borrowings. Instead, as discussed earlier in this report, the
          bank significantly increased its reliance on brokered deposits during 2008.

         Examiner concern regarding the adequacy of the bank’s CFP became more
          pronounced at the December 2008 examination. Although the examination report
          concluded that the bank’s CFP was generally acceptable, the report also
          highlighted the need for the CFP to address additional stress events including, but


                                               15
       not limited to (1) a change in the bank’s credit rating, (2) deterioration in asset
       quality, (3) changes in the bank’s capital position to less than Well Capitalized,
       (4) unplanned asset growth, (5) the recognition of operating losses, and (6) the
       possibility of losing access to brokered and other high-rate deposits.

As noted previously in this report, Buckhead’s access to brokered deposits was restricted
in January 2009. Additional supervisory emphasis on contingency planning related to
brokered deposits during the January 2008 examination may have further encouraged the
bank to reduce reliance on those deposits during 2008 and helped Buckhead better
prepare for restrictions on access to those deposits in 2009.

Credit Risk Management Practices

During the January 2006 and February 2007 examinations, examiners found the bank’s
credit risk management practices to be adequate but made some recommendations for
enhancing procedures. During the January 2008 and December 2008 examinations,
however, examiners found the bank’s credit risk management practices to be inadequate
and made a number of recommendations to address the loan underwriting and credit
administration weaknesses identified earlier in this report.

Examiner concerns regarding credit risk management practices were also addressed in the
November 2008 MOU provision requiring the bank to adopt a loan policy that discussed
the use of interest reserves, global cash flow analyses, borrower equity requirements,
monitoring of construction projects, and monitoring of loan participations purchased. In
addition, both the MOU and the August 2009 C&D identified additional actions that the
bank should take to improve credit risk management, including:

      establishing and maintaining an adequate reserve for loan losses, to include a
       quarterly review of the ALLL;

      improving the management of problem loans, including developing plans for
       reducing and improving adversely classified loans, and restricting extensions of
       credit for certain borrowers; and

      correcting apparent violations of regulations and apparent contraventions of
       policy, and ensuring future compliance.

In each of the examinations conducted since 2005, examiners cited Buckhead for one or
more apparent violations of regulatory requirements or apparent contraventions of policy
related to credit risk management, specifically:

      FDIC Rules and Regulations, Part 365, Real Estate Lending Standards, Appendix
       A, Interagency Guidelines for Real Estate Lending Policies, and Part 323,
       Appraisals.

      Rule 80-1-5.04 of the State of Georgia Rules and Regulations, Participation
       Loans, Amended.


                                             16
       Interagency Policy Statement on the Allowance for Loan and Lease Losses.

Regarding the ALLL, a February 27, 2008 memorandum in the Atlanta Regional Office
correspondence files stated that bank management had not provided for an adequate
ALLL commensurate with the level of risk in the portfolio. In addition, the
memorandum noted that the increase in adverse classifications and the bank’s ineffective
loan rating system demonstrated management’s inability to adequately assess and
appropriately maintain the ALLL. The January 2008 examination report, issued
September 5, 2008, indicated the need for an additional $1.5 million in provision
expense. The report concluded, however, that the ALLL methodology was satisfactory.
Subsequently, the December 2008 examination report, issued July 9, 2009, concluded
that the bank’s ALLL methodology was inadequate and the inadequacy resulted in an
ALLL balance that was underfunded by $8.6 million, the aforementioned apparent
contravention of interagency policy, and recommendations for specific actions that
management should take to improve the ALLL methodology.

Further examiner assessment of Buckhead’s ALLL methodology during the January 2008
examination may have been warranted. This additional supervisory attention to the
ALLL may have resulted in earlier identification of specific weaknesses in the ALLL
methodology and recommendations for improvement, which may have instilled more
urgency in the bank’s implementation of corrective actions.

Timeliness of Final Examination Reports and Enforcement Actions

As noted earlier in this report, the FDIC and the DBF pursued informal and formal
enforcement actions to address deficiencies noted at the January 2008 and December
2008 examinations. However, earlier issuance of the examination reports and related
enforcement actions may have been prudent. As indicated in Table 5, substantial time
elapsed between the start of the 2008 examinations and the dates that the FDIC imposed
certain enforcement actions.

Table 5: Supervisory Action Timeline for Buckhead’s January 2008 and December
         2008 Examinations
                                                   Examination
                                  Examination
Examination      Examination                         Report
                                   Complete                          Enforcement Action and Effective Date
 Start Date       as of Date                        Issuance
                                     Date
                                                      Date
 01/28/2008       12/31/2007       04/18/2008       09/05/2008      MOU – Effective November 10, 2008
 12/08/2008       09/30/2008       04/09/2009       07/09/2009      BBR – Effective February 2009
                                                                    C&D – Effective August 6, 2009
Source: FDIC Virtual Supervisory Information on the Net system and Atlanta Regional Office
correspondence files.

Although both 2008 examinations identified a significant decline in Buckhead’s financial
condition, the final examination reports and associated enforcement actions to address the
decline were not issued timely.



                                                   17
      The FDIC issued the January 2008 examination report to Buckhead 7 months
       after the examination began. Although the FDIC included a draft of the related
       MOU with the report transmittal letter to Buckhead, the final MOU became
       effective almost 2 months later, well after the FDIC had identified the weaknesses
       and financial deterioration that this enforcement action was designed to address.
       Our discussion with DSC officials indicated that resources and examination
       workload issues were the primary causes for the delayed issuance.

      The DBF and the FDIC issued the December 2008 examination report to
       Buckhead 7 months after the examination began. Although the C&D was
       effective within 1 month of the examination report issuance, this date was
       8 months after the examination started and 4 months after the examination was
       completed. In the interim, the bank developed a BBR and provided periodic
       progress reports on compliance with the BBR to the FDIC and the DBF. While
       the BBR addressed most of the issues subsequently included in the C&D, the
       DBF and the FDIC determined that a formal, legally enforceable enforcement
       action was more appropriate to address the deficiencies and deteriorated financial
       condition at Buckhead.

Earlier issuance of the January 2008 and December 2008 examination reports and
subsequent imposition of related enforcement actions may have instilled more urgency in
the Board and management to address weaknesses and improve the bank’s financial
condition in a timely manner. The FDIC has established a 2010 annual performance goal
to promptly implement appropriate corrective programs for “3”, “4”, and “5”-rated
institutions or otherwise ensure that significant examiner concerns are presented to a
bank’s Board and management’s attention after examinations are completed. In addition,
the FDIC recently issued examination guidance and provided examiner training that
emphasized the importance of timely supervisory action, including consideration of a
temporary C&D authorized by section 8(c) of the FDI Act when appropriate.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-charted nonmember banks that are not adequately capitalized.
Based on supervisory actions taken with respect to Buckhead, we concluded that the
FDIC had properly implemented applicable PCA provisions of section 38 of the FDI Act.
Although the FDIC followed PCA guidance, by the time Buckhead’s capital levels fell
below the required thresholds necessary to implement PCA, the bank’s condition had
deteriorated to a point at which the institution was unable to raise additional capital.

As indicated previously in Table 2, Buckhead pursued a business strategy of rapid growth
in ADC loans, with the bank’s level of ADC concentration well in excess of its peers.
The Joint Guidance emphasizes that institutions should maintain capital levels
commensurate with the level and nature of their CRE concentration risk. Although



                                           18
Buckhead remained Well Capitalized until December 31, 2008, as shown in Table 6, the
bank consistently maintained its Total Risk-Based Capital ratio below that of its peers.

Table 6: Buckhead’s Total Risk-Based Capital Ratio Compared to Peers
                     Dec-04     Dec-05      Dec-06      Dec-07      Dec-08     Sept-09
                                                  (Percent)
 Buckhead             12.00      11.76       10.77       10.50        8.97       2.23
 Peers                13.86      12.95       12.90       12.73       12.60      13.13
Source: UBPRs for Buckhead.

Buckhead’s Board pursued several options to increase capital and issued a $10 million
subordinated capital note in March 2008, which prevented the bank from falling to
Adequately Capitalized. In addition, on October 31, 2008, Buckhead submitted an
application for Troubled Asset Relief Program funding of $24 million. However,
Buckhead subsequently withdrew that application on March 26, 2009.

The FDIC and the DBF discussed the bank’s capital position with Buckhead’s Board and
management through various means of communication and meetings. Further, in
addition to including provisions in the MOU and C&D on minimum capital requirements,
as discussed earlier in this report, the FDIC followed PCA guidance and appropriately
notified the bank of its capital category and corresponding requirements, as follows:

       January 14, 2009. The FDIC notified Buckhead that it was Adequately
        Capitalized, based on December 31, 2008 financial information.

       August 7, 2009. The FDIC notified Buckhead that it was Undercapitalized,
        based on the initial June 30, 2009 Call Report. The bank was required to prepare
        a capital restoration plan, which was submitted to the FDIC on September 25,
        2009. The FDIC did not provide a formal response to the plan since the bank was
        targeted for closure.

       September 14, 2009. The FDIC notified Buckhead that it was Critically
        Undercapitalized, based on August 31, 2009 financial information.

Although the FDIC followed PCA guidance, by the time Buckhead’s capital levels fell
below the required thresholds necessary to implement PCA, the bank’s condition had
deteriorated to a point at which the institution was unable to raise additional capital from
external parties or to find a suitable acquirer prior to the failure of the bank on
December 4, 2009.




                                             19
Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
June 9, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of Buckhead’s failure. With
regard to our assessment of the FDIC’s supervision of Buckhead, DSC stated that after
Buckhead’s acquisition of Forsyth in December 2007, the FDIC conducted a full-scope
examination in January 2008 and that examiners noted heightened risks due to high
concentrations in ADC lending and found that a large portion of the loans adversely
classified originated from the Forsyth office. In addition, DSC stated that at the
December 2008 examination, Buckhead’s loan assets had further deteriorated to a level
that raised significant regulatory concern and posed considerable risk, resulting in a
formal enforcement action. Buckhead was unable to raise sufficient capital to absorb the
loan losses, support its operations, and maintain liquidity. Further, DSC stated that it
recognizes that strong supervisory attention is necessary for institutions with high ADC
and commercial real estate concentrations and volatile funding sources, such as
Buckhead, and has issued updated guidance reminding examiners to take appropriate
action when those risks are imprudently managed.




                                            20
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if the Deposit Insurance Fund incurs a material loss with respect
to an insured depository institution, the Inspector General of the appropriate federal
banking agency shall prepare a report to that agency reviewing the agency’s supervision
of the institution. The FDI Act requires that the report be completed within 6 months
after it becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from February to May 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Buckhead’s operations from December 31,
2004 until its failure on December 4, 2009. Our review also entailed an evaluation of the
regulatory supervision of the bank from July 1, 2005, the date that the FDIC effectively
became the primary regulator of Buckhead, until the bank failed.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports issued by the FDIC and the DBF from 2005 to
         2009.

        Reviewed the following:

              Available FDIC examination work papers and correspondence maintained at
               DSC’s Atlanta Regional Office and Atlanta Field Office in Georgia.

              Documentation related to Buckhead’s conversion from a national to a
               nonmember bank charter, in July 2005.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure. We also reviewed selected failed
               bank records maintained by DRR in Jacksonville, Florida for information
               that would provide insight into the bank’s failure.


                                             21
                                                                                 Appendix 1

                      Objectives, Scope, and Methodology

              Audit Reports prepared by the bank’s external auditor, Mauldin & Jenkins,
               LLC.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.

              Actions that DSC implemented to comply with (1) provisions of section 29
               of the FDI Act and FDIC Rules and Regulations Part 337, Unsafe and
               Unsound Banking Practices, restricting Buckhead’s use of brokered
               deposits; and (2) section 38 of the FDI Act, including, but not limited to,
               issuing PCA notification letters restricting Buckhead’s growth and payment
               of dividends, when applicable, based on Buckhead’s capital category.

        Interviewed the following FDIC officials:

              DSC officials in the Atlanta Regional Office.

              FDIC examiners from the DSC Atlanta Field Office who participated in
               examinations of Buckhead.

              DRR officials at the FDIC Jacksonville, Florida office.

        Met with officials from the DBF to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the state's supervision
         of the bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in FDIC systems, reports, and
interviews of examiners to understand Buckhead’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from FDIC systems but determined that information system controls
were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on


                                               22
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and of the FDIC’s Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                            23
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards
                    of directors are responsible for ensuring that their institutions have
                    controls in place to consistently determine the allowance in accordance
                    with the institutions' stated policies and procedures, generally accepted
                    accounting principles, and supervisory guidance.
Bank Board          A BBR is an informal commitment adopted by a financial institution’s
Resolution (BBR)    Board of Directors (often at the request of the FDIC) directing the
                    institution’s personnel to take corrective action regarding specific noted
                    deficiencies. A BBR may also be used as a tool to strengthen and
                    monitor the institution’s progress with regard to a particular component
                    rating or activity.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.
Cease and           A C&D is a formal enforcement action issued by a financial institution
Desist Order        regulator to a bank or affiliated party to stop an unsafe or unsound
(C&D)               practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

                    Section 8(c) of the FDI Act authorizes the FDIC to issue a temporary
                    C&D, effective immediately, to halt particularly dangerous practices or
                    conditions pending a formal hearing on a permanent C&D. To obtain a
                    temporary C&D, the FDIC has the burden to show that an unsafe or
                    unsound practice on the part of an institution is likely to cause the
                    insolvency or dissipation of assets or earnings, or to weaken the
                    condition, of the institution.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.



                                            24
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Contingency         A written plan that defines strategies for addressing liquidity shortfalls in
Funding Plan        emergency situations. Such plans delineate policies to manage a range of
(CFP)               stress environments, establish clear lines of responsibility, and articulate
                    clear implementation and escalation procedures. Contingency funding
                    plans should be regularly tested and updated to ensure that they are
                    operationally sound. DSC uses the term contingency funding plan and
                    contingency liquidity plan interchangeably.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for defining capital adequacy and taking
                    prompt supervisory actions against insured depository institutions that
                    are in an unsafe or unsound condition. The following terms are used to
                    describe capital adequacy: (1) Well Capitalized, (2) Adequately
                    Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                    and (5) Critically Undercapitalized.
Troubled Asset      TARP was established under the Emergency Economic Stabilization Act
Relief Program      of 2008, which established the Office of Financial Stability within the
(TARP)              Department of the Treasury. Under TARP, Treasury will purchase up to
                    $250 billion of preferred shares from qualifying institutions as part of
                    the Capital Purchase Program.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from Call
                    Report data submitted by banks.




                                             25
                                                                  Appendix 3
                          Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk

CFP      Contingency Funding Plan

CRE      Commercial Real Estate

DBF      Department of Banking and Finance

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FAS      Financial Accounting Standards

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

MOU      Memorandum of Understanding

OCC      Office of the Comptroller of the Currency

OIG      Office of Inspector General

PCA      Prompt Corrective Action

REST     Real Estate Stress Test

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                   26
                                                                                    Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                       June 9, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of The
                 Buckhead Community Bank, Atlanta, Georgia (Assignment No. 2010-021)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of The
Buckhead Community Bank, Atlanta, Georgia (Buckhead) which failed on December 4, 2009.
This memorandum is the response of the Division of Supervision and Consumer Protection
(DSC) to the OIG’s Draft Report (Report) received on May 19, 2010.

The Report concludes that the decision of Buckhead’s Board of Directors’ (Board) and
management to concentrate the loan portfolio in acquisition, development, and construction
(ADC) loans and its reliance on brokered and large deposits were the principal factors leading to
its rapid deteriorating financial condition and failure. Buckhead’s overall weak loan
administration contributed to the increased delinquencies and non-performing assets.
Additionally at the time of the economic downturn, Buckhead’s Board made an ill-timed
decision to expand with the acquisition of another institution with significant ADC
concentrations.

From 2005 through December 2009, the FDIC and the Georgia Department of Banking and
Finance (GDBF) jointly and separately conducted five full-scope examinations. After
Buckhead’s acquisition of The First National Bank of Forsyth County (Forsyth) in December
2007, the FDIC immediately began a full scope examination in January 2008. Examiners noted
heightened risks due to high concentrations in ADC lending and found that a large portion of the
loans adversely classified originated from the Forsyth office. At the December 2008 GDBF and
FDIC joint examination, Buckhead’s loan assets had further deteriorated to a level that raised
significant regulatory concern and posed considerable risk, resulting in GDBF and FDIC
implementing a formal enforcement action. Buckhead was unable to raise sufficient capital to
absorb the loan losses, support its operations, and maintain liquidity.

DSC recognizes that strong supervisory attention is necessary for institutions with high ADC and
commercial real estate concentrations and volatile funding sources, such as Buckhead, and has
issued updated guidance reminding examiners to take appropriate action when those risks are
imprudently managed.

Thank you for the opportunity to review and comment on the Report.




                                                    27
